         This case was brought to the attention of 01G by a                            program officer in
the ~ i v i s i o d

 (the PIS), to
.previously discussed the possibility of cooperative research with the PIS. He supplied copies of
 correspondence to document those discussions. One of the ideas covered in those discussions was
 described by the proposal. The informant expressed concern about a possible conflict of interest as a
 reviewer based on his knowledge of and support of the ideas expressed in those discussions. He did
 not express concern about intellectual theft by the PIS or any other form of misconduct.

        A review of the materials supplied by the informant showed that he had properly drawn
attention to his possible conflict of interest.as a reviewer. The resolution of this disclosure rests with
the program officer in consultation with the DivisiodDirectorate-level Conflicts Officials and the
Office of General Counsel. We advised the program officer to contact his Conflicts Official.

        There is no basis for an allegation of misconduct, and this case is closed.




cc:     Assistant Inspector General for Oversight
        Inspector General
